                                                               Report Summary
Social Security Administration
Office of the Inspector General



Project Matrix Step Two: Analysis of the Social Security Administration’s
Headquarters Complex and the Office of Central Operations
(A-14-04-24006)
Our objective was to complete a Step Two functional analysis of the Project Matrix, as
developed by the Critical Infrastructure Assurance Office, to measure the Social Security
Administration’s (SSA) compliance with Presidential Decision Directive 63 for SSA’s
Headquarters Complex (main campus), and SSA’s Office of Central Operations (OCO),
including OCO's Office of Disability Operations, Office of Earnings Operations, and Office of
International Operations. This review was performed to determine dependencies and
interdependencies of SSA’s Headquarters Complex and OCO with other Federal and private
organizations and the possible points of failure.

We noted that SSA's main campus and OCO facilities have no dependencies that rise to the
level of 'critical' as defined by Project Matrix Step Two criteria. However, SSA's Continuity of
Operations Plan (COOP) is essential to the performance of these two assets should a
catastrophic event occur. Therefore, SSA needs to continually update, revise, and
adequately test its COOP to ensure its performance.

The report contains no recommendations. SSA noted that we are an active member of SSA's
Critical Infrastructure Protection (CIP) Workgroup, and that during Workgroup discussions,
CIP Workgroup comments and suggestions were incorporated into our report. SSA indicated
that it will continue to update, revise, and adequately test the COOP plan to ensure its
performance.
